Audit of USAID/Uganda’s Monitoring of the
  Performance of Its HIV/AIDS Program


           Report No. 4-617-02-004-P
               March 12, 2002




        PRETORIA, SOUTH AFRICA
U.S. Agency for
 INTERNATIONAL
  DEVELOPMENT
   RIG/Pretoria


March 12, 2002

MEMORANDUM
FOR:              Mission Director, USAID/Uganda, Dawn M. Liberi

FROM:             Acting Regional Inspector General/Pretoria, Nancy J. Lawton

SUBJECT:          Audit of USAID/Uganda’s Monitoring of the Performance of
                  Its HIV/AIDS Program - Audit Report No. 4-617-02-004-P

This memorandum is our report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report. We have included
those comments, in their entirety, as Appendix II to this report.

This report contains one recommendation. Based on your response describing
corrective actions begun, a management decision has been reached for
Recommendation No. 1. Please advise the Bureau for Management, Office of
Management Planning and Innovation, Management and Innovation Control
Division (M/MPI/MIC), when final action is complete.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
Table of   Summary of Results                                            3
Contents   Background                                                    4

           Audit Objectives                                              5

           Audit Findings                                                5

              Did USAID/Uganda monitor performance of its
              HIV/AIDS program in accordance with the
              Automated Directives System?                               5

              Is USAID/Uganda achieving intended results from its
              HIV/AIDS program?                                          9

              What is the status of USAID/Uganda’s efforts to meet
              anticipated HIV/AIDS reporting requirements?               18

           Management Comments and Our Evaluation                        20

           Appendix I - Scope and Methodology                            21

           Appendix II - Management Comments                             23

           Appendix III - Rapid Scale-Up and Intensive Focus Countries   25

           Appendix IV - Summary of USAID/Uganda’s Selected
                         Performance Monitoring Controls                 26




                                                                              2
Summary of   Over the last three years, USAID funding for HIV/AIDS has increased
Results      dramatically—from $142 million in fiscal year 1999 to over $300 million in
             fiscal year 2001. This increase has created a demand for greater accountability
             on the part of USAID and its operating units, both as to monitoring progress and
             achieving intended results. (See pages 4-5.)

             USAID procedures for monitoring programs, including its HIV/AIDS programs,
             are contained in its Automated Directives System (ADS). The ADS sets forth
             requirements that operating units must follow in managing their programs, such
             as the establishment of indicators, identification of data sources, and planned
             methods by which data are to be collected. RIG/Pretoria tested
             USAID/Uganda’s monitoring of its HIV/AIDS program against eleven controls
             contained in the ADS. USAID/Uganda has successfully implemented ten of the
             controls but has yet to implement one. To ensure that data agree to source, we
             recommend that USAID/Uganda establish and implement procedures to monitor
             its partners’ methods of data collection. (See pages 5-8.)

             USAID uses results-oriented management to reasonably ensure that programs
             are achieving their intended results. USAID/Uganda uses seven performance
             indicators to manage its HIV/AIDS program. RIG/Pretoria tested four at the
             strategic objective level: (1) HIV Prevalence, (2) HIV Testing and Counseling,
             (3) HIV Counseling, and (4) Socially Marketed Condoms. The performance
             data for these four indicators showed that the Mission was achieving intended
             results for the first and last performance indicators. The review also showed
             that, although USAID/Uganda did not achieve intended results for the second
             and third indicators, it was making progress toward achieving the targets.
             (See pages 9-18.)

             To improve the monitoring process for its HIV/AIDS program, USAID has
             drafted monitoring and evaluation guidance, “USAID’s Expanded Response to
             the Global HIV/AIDS Pandemic.” The guidance establishes several global
             targets USAID expects to achieve as a result of the additional funding it
             anticipates receiving. The guidance also requires missions to routinely monitor
             and evaluate their HIV/AIDS programs using standard indicators. As a recipient
             of significant additional funding, USAID/Uganda is preparing to meet these
             additional monitoring requirements. The results of RIG/Pretoria’s review
             indicate that the Mission is making progress toward meeting HIV/AIDS
             reporting requirements contained in the newly drafted guidance.
             (See pages 18-19.)




                                                                                              3
Background   USAID funding for HIV/AIDS has increased over the past three years – from
             $142 million in fiscal year 1999 to over $300 million in fiscal year 2001.
             USAID is organizing its response to HIV/AIDS around the three categories of
             countries: rapid scale-up, intensive focus, and basic. These categories were
             developed based on 1) the amount of resources that USAID intends to apply and
             2) expectations as to when a measurable impact might be achieved. For
             example, USAID defines rapid scale-up countries as those that will receive a
             significant increase in resources to achieve measurable impact within one to two
             years. Uganda, a country of 23 million people, is one of the four rapid scale-up
             countries. (See Appendix III for a more complete description of these
             categories.)

             Table 1 provides information on USAID/Uganda’s funding for its HIV/AIDS
             program for fiscal years 1999-2001.


                                              Table 1
                                         USAID/Uganda
                                  Total Funding for HIV/AIDS
                                     Fiscal Years 1999-2001
                                       (millions of dollars)
                                   Bi-Lateral
                     Fiscal        Program          Field Support      Total
                     Year           Funding             Funding       Funding
                     1999                     $4.4             $2.6          $7.0
                     2000                      3.6              3.3           6.9
                     2001                      9.0              3.3          12.3
                NOTE – USAID/Uganda provided the data, which were not audited.

             A structured Government response to the HIV/AIDS epidemic in Uganda dates
             back to 1986 when an AIDS Control Programme was created in the Ministry of
             Health. In recognition of the fact that HIV/AIDS has causes and consequences
             far beyond the health sector, the Uganda AIDS Commission was established in
             1992 by Statute of Parliament, placed under the Office of the President, and
             tasked with coordinating the multi-sectoral efforts against the epidemic. By
             1993, the “Multi-sectoral Approach to the Control of AIDS” was developed and
             adopted as the National Policy and Strategy against HIV/AIDS. This policy
             calls for the individual and/or collective involvement of everyone, according to
             his or her capacity, and is a mandate to fight the epidemic. The national
             response has thus been characterized by a policy of openness backed by effective
             political support from the highest level of government. In short, the success of
             Uganda’s HIV/AIDS program can be attributed to the Government of Uganda’s
             good leadership in addressing the problem, and as well as to the Ugandans’ early
             acceptance of the disease as a major health threat.




                                                                                           4
Audit Objectives   This audit is one of a series of audits being conducted worldwide of USAID’s
                   monitoring of the performance of its HIV/AIDS program at the mission level.
                   The Performance Audits Division of USAID’s Office of Inspector General is
                   leading the audits. Regional Inspector General, Pretoria (RIG/Pretoria)
                   conducted this audit.

                   The audit objectives and its scope and methodology were developed in
                   coordination with USAID’s HIV/AIDS Division in the Bureau for Global
                   Programs, Field Support and Research. RIG/Pretoria performed this audit in
                   Kampala, Uganda to review USAID/Uganda’s HIV/AIDS program and,
                   specifically, to answer the following audit objectives:

                   •   Did USAID/Uganda monitor performance of its HIV/AIDS program in
                       accordance with Automated Directives System guidance?

                   •   Is USAID/Uganda achieving intended results from its HIV/AIDS
                       program?

                   •   What is the status of USAID/Uganda’s efforts to meet anticipated
                       HIV/AIDS reporting requirements?

                   Appendix I describes the audit’s scope and methodology.



Audit Findings     Did USAID/Uganda monitor performance of its HIV/AIDS program in
                   accordance with Automated Directives System guidance?

                   USAID/Uganda (Mission) generally monitored performance of its HIV/AIDS
                   program in accordance with USAID’s Automated Directives System (ADS).
                   ADS 203 outlines USAID’s policies and procedures for implementing
                   performance monitoring systems. However, one area of the Mission’s
                   performance monitoring system that should be improved is that data in the
                   performance data tables should agree to source documents.

                   USAID/Uganda’s performance monitoring plan included seven performance
                   indicators, which the Mission used to monitor its HIV/AIDS activities. To focus
                   testing, a sample of four HIV/AIDS performance indicators at the strategic
                   objective level was selected for review: (1) HIV Prevalence; (2) HIV Testing
                   and Counseling; (3) HIV Counseling; and (4) Socially Marketed Condoms.
                   In accordance with the ADS, the Mission prepared a detailed plan, which
                   included most of the required eleven controls (see Appendix IV). The plan
                   included controls such as:



                                                                                                  5
•   definition of indicators
•   identification of data sources
•   description of data collection methods
•   specification of data collection schedules
•   assignment of responsibility
•   disclosure of data limitations
•   description of quality assessment procedures

In addition, the Mission established baselines for the indicators in the plan.
Regarding data quality assessments, the Mission reviewed the data
assessments performed by its partners. As a further check for data
consistency, the Mission used other monitoring tools, such as independent
surveys and evaluation reports.

However, based on comparisons of data in the performance data tables to that
submitted by the Mission’s partners, the results showed that data did not agree
to source documents. Further review indicated that the discrepancies were
caused by inconsistencies in the methods of data collection.

Performance Data Did Not
Agree to Source Documents

ADS 203 states that performance data should be as complete, accurate, and
consistent as management needs and resources permit. In addition, to be
useful in managing for results and credible for reporting, performance data
should meet reasonable standards of validity, timeliness, precision, integrity,
and reliability.

Data reliability refers to the stability or consistency of the data collection
process. Performance data collected or used by operating units should be
reasonably reliable; that is, they should reflect a consistent data collection
process from year to year such that managers can be confident that progress
toward indicator targets reflects real changes rather than variations in data
collection methods.

Comparisons showed the data in the performance data tables did not agree to the
source documents submitted by the partners. Further review of the partners’
documentation indicated that the discrepancies were caused by inconsistencies in
the methods of data collection. Even though the Mission’s performance
monitoring plan included the required data collection method, the Mission did
not always monitor its partners’ methods of data collection. The following is a
brief description of the partners’ data collection methods and the results of data
comparisons:




                                                                                  6
HIV Prevalence – For this indicator, Uganda’s Ministry of Health (MOH)
routinely gathers data on HIV prevalence among pregnant antenatal-care clients
(ages15-19 and 20-24) across four sentinel surveillance sites. Two sites are in
Kampala (Nsambya, Rubaga), one in Jinja, and one in Mbarara.

Comparison of fiscal year 1999 data contained in the plan to that submitted by
the MOH resulted in no discrepancies. However, the MOH reported partial sets
of data for the aforementioned fiscal year because data were not available for all
four sentinel sites at the time of the R4 report. Because only a partial set of data
was reported, data reliability was compromised.

HIV Testing and Counseling – The AIDS Information Centre reports the
number of individuals receiving HIV testing and counseling per year in 3 of
12 Delivery of Improved Services for Health (DISH) districts for this
indicator.

Discrepancies were noted in four of the five years of data that were compared.
While none of the discrepancies met the threshold for materiality, the data
comparisons indicated that the number of non-AIC facilities where data were
collected changed from one year to the next. For example, in 1997 data were
obtained from 14 non-AIC facilities; in 1998 data were obtained from 26 non-
AIC facilities. Furthermore, AIC gave a number of possible explanations for
the discrepancies such as (a) data are received late due to transport problems;
(b) cards are not collected on time due to absence of responsible officials; and
(c) calendar-year reporting and financial-year reporting could conflict. Based
on the above facts, inconsistencies in the data collection method have
compromised the reliability of the data.

HIV Counseling – For this indicator, The AIDS Support Organization
(TASO) reports the number of new clients counseled in four DISH districts
(Kampala, Mbarara, Jinja, and Masaka) where TASO centers are located.

Comparison of data from the performance data table to that reported by TASO
identified discrepancies, which met the defined materiality threshold of plus
or minus five percent, in two of the five years of data submitted. For example,
in 1998, TASO reported that the annual number of new HIV-positive
individuals counseled in target districts was 5,678; however, TASO’s
supporting document showed 4,900 HIV-positive individuals. This is 13.7
percent less than the number reported. Again, in 2000, TASO reported that
4,156 HIV-positive individuals were counseled; the supporting document
indicated 4,461 HIV-positive individuals, which is 7.34 percent more than the
number reported. TASO explained that the discrepancies could have been
caused either by differences in reporting periods or late submission of data
adjustments.



                                                                                   7
In addition, we reviewed the Centers for Disease Control’s quality assessment
of TASO’s data and noted that officials from both organizations recognized
that there were no definite guidelines on when and how to collect data. Both
parties agreed that this is a training issue needing immediate attention. Based
on TASO’s explanation and our review, we conclude that data reliability has
been compromised because of inconsistencies in the method of data
collection.

Socially Marketed Condoms – The Commercial Market Strategies Project
provides the annual national number of social marketing condoms sold to
distributors for this indicator.

The comparison of the 1997 data in the performance monitoring plan (condom
sales of 9.5 million) with that submitted by the Commercial Market Strategies
(condom sales of 8.9 million) identified a discrepancy which met the defined
materiality threshold. The Commercial Market Strategies assumed management
responsibility for USAID’s social marketing activities in November 1998 and
did not have supporting documentation for the discrepancy of 0.6 million in
condom sales. However, the Commercial Market Strategies gave the following
possible explanations for the discrepancy: (a) the possibility of samples
distributed for free being included in one report, but excluded from another; or
(b) differences in reporting periods.

In summary, ensuring performance data is complete, accurate, and consistent
is a key control in monitoring the performance of the Mission’s HIV/AIDS
program. This is achieved by ensuring that the data reported agree to source
documents. To fully comply with ADS 203, Mission officials should address
this control by monitoring the methods of data collection. According to
ADS 203, performance monitoring systems should gather comparable data
periodically to measure progress. In addition, when planning the method of
data collection, an important factor to consider is management’s need for
timely information for decision-making. To make USAID/Uganda’s
performance monitoring system fully compliant with ADS 203, we
recommend the following:

       Recommendation No. 1: We recommend that USAID/Uganda
       establish and implement procedures to monitor its partners’
       methods of data collection.




                                                                               8
Is USAID/Uganda achieving intended results from its HIV/AIDS
program?

USAID/Uganda achieved its intended results for two of the four performance
indicators selected for review. In fiscal year 1999, USAID/Uganda achieved its
targets for HIV prevalence and in fiscal year 2000, for socially marketed
condoms.

Although the Mission did not achieve its fiscal year 2000 targets for HIV testing
and counseling and HIV counseling, we believe this was due, in part, to
circumstances beyond the Mission’s control. Intended results were not achieved
for HIV testing and counseling in fiscal year 2000 primarily because strategies to
improve performance were not implemented due to lack of funding. While
intended results were not achieved for HIV counseling, according to the Mission
there was an increase in medical visits. The Mission planned to reconsider
targets for both these indicators once the new strategies supported by funding
under the LIFE1 Initiative were defined.

Office of Management and Budget Circular A-123 requires that agencies and
individual federal managers take systematic and proactive measures to
develop and implement management controls for results-oriented
management. It goes on to state that management controls are the policies and
procedures used to reasonably ensure that programs achieve their intended
results. These controls consist of establishing indicators to manage for results,
collecting baseline data for these indicators prior to project intervention,
setting targets for these indicators, periodically collecting data to monitor
results, and assessing the quality of the data being collected.

USAID/Uganda used seven performance indicators to manage its HIV/AIDS
program, four at the strategic objective level and three at the intermediate
results level. We tested the following strategic objective level indicators:

•   HIV prevalence

•   HIV testing and counseling

•   HIV counseling

•   Socially marketed condoms



1
 Leadership and Investment in Fighting an Epidemic (LIFE) – a $100 million increase in U.S.
support for sub-Saharan African countries and India, which are working to prevent the further
spread of HIV and to care for those affected by the disease. USAID/Uganda received $2.5
million.


                                                                                           9
According to data gathered by USAID/Uganda to monitor its HIV/AIDS
program, the Mission achieved its intended results for two performance
indicators—HIV prevalence and socially marketed condoms. But with regard
to the other two performance indicators—HIV testing and counseling and HIV
counseling—it did not due to circumstances beyond the Mission’s control.
The four indicators are discussed below.

HIV Prevalence – According to information provided by the HIV/AIDS
team, HIV seroprevalence among pregnant women aged 15 to 24 years old is
widely used as a proxy for seroprevalence in the wider population. Thus,
declining rates in this at-risk group are suggestive of declines in the adult
population. The Uganda Ministry of Health’s (MOH) sentinel surveillance
system is the data source for this indicator. Sentinel surveillance system is the
serial collection of HIV prevalence data over time and place in selected
groups of the population in order to monitor trends in HIV infection using
anonymous, unlinked procedures.

Specifically, the indicator reports the percent of blood samples taken from
women aged 15-24 who tested positive for HIV during routine sentinel
surveillance at selected antenatal clinics. The data are disaggregated and
reported by two age groups. The planned values assume a 10 percent decline
in prevalence rates between 1996 and 1997 and a 5 percent annual decline
thereafter.

As Table 2 shows, in 1999 USAID/Uganda exceeded its target for a decline in
HIV prevalence levels for both 15- to 19-year-old and 20- to 24-year-old
antenatal care clients. Furthermore, the table illustrates that USAID/Uganda’s
performance data from 1997 to 1999 show that HIV prevalence has declined
for both age groups.

                                        Table 2
                               Percent of Blood Samples
                               Testing Positive for HIV

            15-19-year-old                            20-24-year-old

                                    Percent                                Percent
    Year Planned         Actual    Difference Planned           Actual    Difference
     1997      7.8             8.3        -6.4     15.6              14.6         6.4
     1998          7.4          7.3          1.4        14.8           14.0         5.4
     1999          7.1          5.9         16.9        14.1           10.4        26.2
     2000          6.7                                  13.3
    Note - Prevalence data for year 2000 was not available in the Mission’s FY 2003 R4.
    MOH provided the data, which were not audited.




                                                                                          10
However, in its performance data table for the FY 2003 R4, the Mission
pointed out that prevalence data for 1999 were based on only three of the four
sentinel surveillance sites. Thus, we can only surmise that for 1999 the
difference between planned and actual prevalence levels may have been
somewhat higher than reported. Nevertheless, we agree that USAID/Uganda
achieved its target for year 1999 because the performance data table illustrates
a steady decline in HIV prevalence for both age groups.

USAID/Uganda recognized the limitations of the four sentinel surveillance
sites in determining HIV prevalence in Uganda. For example, as the epidemic
matures, it is expected that fertility will decline among HIV-positive women
for behavioral and biological reasons. And there is a lag time between data
collection and data analysis due to staffing shortages. Finally, there are
limited numbers of test-kits available because of procurement and stock
management problems. Thus, the Centers for Disease Control are working
with the Ministry of Health to improve the quality of reporting, data analysis
and expansion of sites.

Socially Marketed Condoms – Condoms are proven to be successful in
preventing the transmission of HIV/AIDS. Socially marketed condoms
provide for regular access at reasonable prices outside the public sector supply
chain. The Commercial Market Strategies project is the data source for this
indicator.

This indicator measures the annual number of social marketing condoms sold
to distributors nationwide, specifically, the number of Protector brand
condoms sold in all parts of Uganda by Commercial Market Strategies.

As shown in Table 3, in year 2000, the annual number of condoms sold to
distributors exceeded the planned amount by more than two million. The
table also shows declining condom sales for 1997 to 1999, which can be
explained by several significant events.


                                     Table 3
                            Annual Number of Socially
                             Marketed Condoms Sold
                                  (In Millions)
                                  Planned                      Actual
              Year                  Sales                      Sales
              1997                    12.0                      9.5
              1998                    10.8                      6.4
              1999                    12.4                      4.1
              2000                     8.0                      10.2
       Note – CMS provided the data, which were not audited.




                                                                              11
During 1997, a new KfW2-funded condom social marketing program was
launched in Uganda. Between April and October of the same year, the AIDS
Control Programme distributed approximately 20 million free condoms. The
continued presence and strong performance of the KfW-funded program in 1998
affected condom sales. In 1999 much time was spent resolving packaging issues
with the Uganda National Drug Authority, and for a period of six months no
Protector condoms were sold to distributors. The repackaging of Protector
condoms was expected to boost sales. And, given the jump in condom sales for
year 2000, it may well have done so.

The HIV/AIDS program in Uganda has produced positive results due to the
combined efforts of USAID and other organizations. For example:

•     USAID, as the major contributor and facilitator, has worked closely with
      the Uganda AIDS Commission, the Ministry of Gender, Labor and Social
      Development, United Nations Children’s Educational Fund and United
      Nations AIDS (a joint United Nations Programme on HIV/AIDS) to
      undertake a situational analysis of orphans in Uganda.

•     Donor collaboration has significantly contributed to the successful multi-
      sector approach Uganda has adopted to respond to the HIV/AIDS
      epidemic. The AIDS Support Organization (TASO) is the first and largest
      care and support organization in Africa. USAID was one of its initial
      supporters, willing to take a risk on an unknown indigenous organization.
      However, many other international donors have come on board to provide
      critical support to TASO.

•     USAID and the Centers for Disease Control jointly funded the Leadership
      and Investment in Fighting an Epidemic (LIFE) program through an
      interagency agreement. The program provided the impetus and initial
      funding for the HIV/AIDS Integrated Model District Program, which is
      developing comprehensive, integrated HIV/AIDS services in 12 districts.
      LIFE funding has also enhanced services provided by TASO and the
      AIDS Information Center.

HIV Testing and Counseling – Voluntary counseling and testing programs
are a proven and effective strategy for HIV/AIDS awareness and prevention,
promoting behavior change and leading to increased condom use. This
indicator identifies voluntary counseling and testing activities attributable to
USAID/Uganda support. The AIDS Information Centre (AIC) is the data
source for this indicator.

The indicator reports on the annual number of individuals tested and
counseled in 3 of 12 DISH (Delivery of Improved Services for Health)
2
    Kreditanstalt fur Wiederaufbau (German Agency for Financial Cooperation)


                                                                               12
districts. Planned values are the projected number of persons to receive
services through AIC and additional non-AIC facilities in DISH districts.

As shown in Table 4, the number of persons tested and counseled in target
areas for calendar year 2000 was 46,806―about 67 percent of the planned
target of 70,000. The table also shows that planned values for 1997-1999
were not achieved.

                                  Table 4
                       Number of Persons Receiving
                        HIV Testing and Counseling

               Year             Planned               Actual
               1997             50,000                34,502
               1998             50,000                45,892
               1999             60,000                47,723
               2000             70,000                46,806
           Note – AIC provided the data, which were not audited.

In its performance data table for this indicator, USAID/Uganda explained that
in 2000, planned values were not met primarily because strategies to improve
performance were not implemented due to lack of funding. In fiscal year
2000, under the LIFE Initiative, the Mission provided additional funding of $1
million to AIC to improve performance at its sites. Through this additional
LIFE funding, AIC was able to support the prevention of mother-to-child
transmission program at Mulago Hospital through recruitment and training of
counselors. In addition, AIC introduced tuberculosis preventative therapy for
HIV-positive clients and developed information, education, and
communication materials as part of the behavioral change communication
initiatives.

With respect to performance data reported for previous years, as discussed
under audit objective one (see page 7, “HIV Testing and Counseling”), the
number of non-AIC facilities where data were collected changed from one
year to the next. Specifically, in 1997 data was obtained from 14 non-AIC
facilities and from 26 non-AIC facilities in 1998. During the audit, the
auditors discussed this point with the HIV/AIDS team. The team then took
action and, on October 17, 2001, redefined the indicator as Number of
individuals receiving HIV testing and counseling services in 26 non-AIC and
3 AIC facilities in DISH districts.

During the audit, the auditors visited the AIC in Kampala, Uganda, to review
program activities. The AIC Director discussed the program services for
voluntary counseling and testing, noting that AIC used rapid HIV tests to
provide on-site, same-day HIV testing and results. The Director also
explained the partnership between AIC and TASO, which ensures that


                                                                            13
individuals who have tested HIV-positive are referred to TASO for follow-up
counseling and medical services.




Banner greets clients entering the AIC facility with list of services available to them.
(October 2001)

The auditors toured the AIC facilities and observed the modern laboratory,
donated by the Centers for Disease Control, where blood samples are tested
for the HIV virus. The auditors also looked in on the AIC’s data management
center, which is responsible for recording all information gathered from the
client registration forms. AIC operates four main branches in the Kampala,
Jinja, Mbarara and Mbale districts. And AIC collaborates with 20 districts to
establish 47 testing sites to provide voluntary counseling and training services.
At the end of the tour, The Post-Test Club—which provides long-term support
for coping with HIV infection—performed a number of songs.

In summary, although USAID/Uganda did not achieve planned results for
HIV testing and counseling as described above, the Mission has taken positive
steps to improve performance at the AIC sites.




                                                                                           14
Clients registering for AIC’s voluntary counseling and testing services. (October 2001)

HIV Counseling – Care and support are essential for people living with
HIV/AIDS and affected family members and friends. The AIDS Support
Organization (TASO) is the data source for this indicator.

The indicator reports the number of new HIV-positive individuals counseled
per year in existing TASO centers and also those counseled by the
community-based organizations TASO supports. The indicator identifies
counseling activities attributable to USAID/Uganda support. Planned values
(see Table 5) reflect expected caseloads for TASO and the community-based
organizations.

As shown in Table 5, the annual number of new HIV-positive individuals
counseled for year 2000 was 4,156—approximately 83 percent of the planned
target of 5,000 individuals. However, the table also shows that
USAID/Uganda exceeded its target for 1998. For 1997 and 1999, the Mission
achieved 99 percent and 97 percent, respectively, of its planned targets.

                                     Table 5
                            Number of New HIV-Positive
                              Individuals Counseled

                Year              Planned                  Actual
                1997                3,250                   3,204
                1998                4,000                   5,678
                1999                4,500                   4,377
                2000                5,000                   4,156
           Note – TASO provided the data, which were not audited.



                                                                                          15
USAID/Uganda explained in its performance data table for this indicator that
the decline in the 1999 indicator is attributed to a reduction in food aid for
clients at the TASO centers. TASO used to give its clients food commodities
such as rice and sugar donated by the European Union through a non-
governmental organization, Inter-Aid. Furthermore, a change in policy in
May 1999 allowed HIV-positive clients a medical consultation without having
to first go through counseling. The Mission further reports that while there
was a decline in the number of HIV-positive individuals receiving counseling
in 2000, there was an increase in medical visits.

In fiscal year 2000, USAID/Uganda provided additional funding, under the
LIFE Initiative, of $800,000 to enhance TASO’s performance in the current
HIV counseling program. The additional LIFE funding afforded TASO the
opportunity to strengthen post-training support to HIV/AIDS initiatives in
districts without TASO centers, which is a means for scaling up AIDS
services in the country as a whole. In addition, TASO is promoting the use of
prophylactic treatment in preventing opportunistic infections. TASO is also
increasing youth involvement in prevention programs. Further, TASO is able
to expand the scope of its support to vulnerable children affected by
HIV/AIDS.

With respect to reported performance data for 1998 and 2000, as discussed
under audit objective one (see page 7, “HIV Counseling”), there were
differences in the actual number of new HIV-positive individuals counseled.
In 1998, the performance data showed 5,678 individuals counseled; in 2000, it
showed 4,156. But TASO’s supporting documentation for 1998 indicated
4,900 individuals were counseled; in 2000, it was 4,461. However, for
purposes of audit objective two, the reporting error had no effect on results for
1998: USAID/Uganda exceeded its performance targets; in 2000, the Mission
came closer to achieving its planned targets.

During the audit, the auditors visited TASO/Mulago, one of seven TASO
facilities in Kampala, Uganda, to review program activities. TASO’s Director
discussed TASO’s mission, client services and their costs, and TASO’s
impressive service statistics. For example, in 2000, TASO provided 47,427
counseling sessions and 66,272 medical consultations. TASO has trained 151
counselors and 770 community workers and presented 236 drama
performances addressing the HIV/AIDS issue.




                                                                               16
TASO welcome sign lists the services provided to clients at its Mulago Centre
facility. (October 2001)

The auditors also toured TASO/Mulago’s facility, observing that each square
foot of TASO’s approximately 1,000-square-foot facility is being put to use to
serve its clients. As one auditor noted, counseling is conducted in every nook
and cranny of the facility. At the end of the tour, TASO’s drama/choral group
performed community education songs about living positively with
HIV/AIDS.




TASO official handing out free condoms to a client. (October 2001)

Due to circumstances beyond USAID/Uganda’s control—that is, reduction in
food aid and a policy change—the Mission came close to, but did not achieve,
its planned results for HIV counseling in 2000.



                                                                                17
In conclusion, for the four indicators tested, USAID/Uganda achieved its targets
for two indicators used to monitor its HIV/AIDS program―HIV prevalence and
socially marketed condoms. The Mission did not achieve its fiscal year 2000
targets for HIV testing and counseling and HIV counseling, but nevertheless
made progress toward achieving the targets. We believe circumstances beyond
the Mission’s control contributed to the situation. In regard to HIV testing and
counseling, strategies to improve performance were not implemented due to lack
of funding. In the case of HIV counseling, the decline in the 1999 indicator is
attributed to a reduction in food aid for clients at the TASO centers. In addition,
a change in policy in May 1999 allowed HIV-positive clients to seek medical
consultation without having to first go through counseling. However, the
Mission took action to resolve the situation by providing additional funding and
reconsidering targets for both indicators. Therefore, we are not making any
recommendations.

What is the status of USAID/Uganda’s efforts to meet anticipated
HIV/AIDS reporting requirements?

USAID/Uganda is making progress toward meeting HIV/AIDS reporting
requirements contained in USAID’s newly drafted guidance.

Due to the significant increase in HIV/AIDS funding from 1999 to 2001, there
has been a great deal of interest in monitoring the results of USAID’s assistance
in this area. In March 2000, USAID’s Global Bureau developed a handbook of
standard indicators that operating units could use to measure the progress of their
HIV/AIDS programs. In March 2001, the United States General Accounting
Office issued its report on USAID’s fight against AIDS in Africa, which
reported the need to be able to better monitor progress. In its report, the General
Accounting Office recommended that USAID’s operating units adopt standard
indicators to measure program performance, gather performance data on a
regular basis, and report data to a central location for analysis.

To improve the monitoring process for its HIV/AIDS program, USAID issued
its draft monitoring and evaluation guidance, “USAID’s Expanded Response to
the Global HIV/AIDS Pandemic.” This new guidance establishes several global
targets USAID expects to achieve with its additional funding and requires
missions to routinely monitor and evaluate their HIV/AIDS programs in a
definitive, systematic way and to report on their progress. As a “rapid scale-up
country,” the draft guidance would require USAID/Uganda to implement this
enhanced monitoring and reporting system. The system would collect and report
information at three levels:

•   At the first level, USAID/Uganda would be required, by 2007, to develop
    a national sentinel surveillance system to report annually on HIV
    incidence rates so as to measure the overall effect of national HIV/AIDS


                                                                                 18
    prevention and mitigation programs on the pandemic. The standard
    indicator for this measurement will be HIV prevalence rates for 15- to 24-
    year-olds. Uganda’s sentinel surveillance system was established as early
    as 1989. Sentinel HIV surveillance is the serial collection of HIV
    prevalence data over time and place in selected groups of the population in
    order to monitor trends in HIV infection using anonymous unlinked
    procedures. USAID supports the Ministry of Health’s sentinel
    surveillance system and relies on its data as part of its performance
    monitoring plan.

•   The second level would require USAID/Uganda to conduct standardized
    national sexual behavior surveys every three to five years, beginning in
    2001. The standard indicators include “number of sexual partners” and
    “condom use with last non-regular partner.” The Mission has access to
    “condom use with last non-regular partner” through one of its data sources
    and has the necessary data from the surveillance report on “number of
    sexual partners.”

•   At the third level, USAID/Uganda would be required to report annually on
    its progress toward implementing its HIV/AIDS program and increasing
    the proportion of the target population covered by the program. The draft
    guidance lists seven standard indicators that missions might use to
    measure progress in selected program areas. Presently, USAID/Uganda is
    using the total number of condoms sold as a standard indicator. The
    Mission is also collecting data on the number (not percent) of individuals
    receiving HIV testing and counseling services in targeted areas and the
    number of new HIV-positive individuals counseled in target districts. In
    addition, the Mission is collecting data on other indicators related to HIV
    prevalence and sexually transmitted infections treatment. These indicators
    are in line with the standard indicators proposed by the guidance.

In summary, USAID/Uganda appears to be well on its way to meeting
requirements for collecting all three levels of data under the new guidance.
Uganda currently has in place a national surveillance system, which the
Mission uses to track its HIV prevalence indicator; and through its partners, the
Mission has access to data for a biennial sexual behavior survey. Finally,
standard indicators are being used to monitor the progress of USAID-funded
activities.




                                                                               19
Management       USAID/Uganda concurred with the audit finding and recommendation to
Comments and     establish and implement procedures to monitor its partners’ methods of data
Our Evaluation   collection.

                 In its response, the Mission advised RIG/Pretoria of actions taken to address
                 the recommendation. For example, the Mission developed a request for
                 proposal to procure an integrated package of technical assistance for itself and
                 its partners to monitor and report on performance. In addition, the Centers for
                 Disease Control and Prevention, one of the Mission’s partners, is developing a
                 formal mechanism to implement activities in its work plan to include
                 monitoring of data quality. Finally, the strategic objective team will include
                 data quality assessments in future site visits.

                 The Mission also included points for clarification of the report; we have
                 modified the text as deemed appropriate.

                 Based on USAID/Uganda’s response, Recommendation No. 1 is classified as
                 having reached a management decision.




                                                                                               20
                                                                                         Appendix I


              Scope
Scope and
Methodology   Regional Inspector General in Pretoria, South Africa, conducted this audit in
              accordance with generally accepted government auditing standards. The
              purpose of the audit was to determine (1) if USAID/Uganda was monitoring
              performance of its HIV/AIDS program in accordance with the ADS; (2) if
              USAID/Uganda is achieving intended results from its HIV/AIDS program;
              and (3) the status of USAID/Uganda’s efforts to meet anticipated HIV/AIDS
              reporting requirements.

              To focus testing, we asked the Mission to collaborate with us in selecting the
              most meaningful performance indicators used to monitor the HIV/AIDS
              program in fiscal year 2000 for our review. Of the seven HIV/AIDS
              performance indicators in the Mission’s performance monitoring plan, the
              collaboration resulted in the selection of four at the strategic objective level:

              1. HIV prevalence among 15- to19- and 20- to 24-year-old pregnant antenatal
                 care clients: Kampala, Jinja, Mbarara (HIV Prevalence)
              2. Annual number of persons tested and counseled in target districts (HIV
                 Testing and Counseling)
              3. Annual number of new HIV-positive individuals counseled in target districts
                 (HIV Counseling)
              4. Annual national number of social marketing condoms sold to distributors
                 (Socially Marketed Condoms)

              Determination as to whether intended results had been achieved was based on
              the fiscal year 2000 results, with the exception of the indicator HIV prevalence.
              We used fiscal year 1999 data for HIV prevalence because the fiscal year 2000
              data was not available in the Mission’s Fiscal Year 2003 R4. In addition, we
              used performance data prior to fiscal year 2000 for comparison purposes in order
              to prove contentions such as decline in prevalence rate and inconsistency in data
              collection method. In evaluating for intended results, we recognized that in
              many cases other entities—as well as the host country—also participated in
              achieving these results. Fieldwork was conducted at USAID/Uganda and at two
              of its partners’ facilities in Kampala, Uganda between October 10 and
              November 7, 2001.

              Our review of management controls focused on USAID/Uganda’s
              performance monitoring plan and how well the Mission complied with
              USAID, Office of Management and Budget, and General Accounting Office
              policies and guidance.




                                                                                                  21
Methodology

To answer the first audit objective, we tested only selected tools, which are
contained in ADS 203, used to monitor performance progress. We reviewed
the Mission’s performance monitoring plan and tested it against the seven
controls contained in USAID's ADS 201. We determined whether data
quality assessments were completed, baselines were established, and data
agreed to source documents. We also obtained information as to what other
methods for monitoring HIV/AIDS program performance were being used by
the Mission.

To answer the second objective, we analyzed planned and actual data for the
indicators presented in the Mission's performance monitoring plan. We also
reviewed baseline data and targets and compared actual data to targets, which
the Mission had set. Actual data were traced to source documents. However,
due to time constraints, we did not trace the source documents to the original
documents. For condom sales, we reviewed sales data.

To answer the third objective, we reviewed USAID's “Handbook of Indicators
for HIV/AIDS/STI Programs,” monitoring and evaluation guidance “USAID’s
Expanded Response to the Global HIV/AIDS Pandemic” (draft dated
February 2001), and the status of the Mission's implementation of this
guidance. For all the above efforts, we reviewed applicable federal and
USAID regulations and guidance; interviewed Mission officials and reviewed
Mission documents; interviewed project officials and reviewed project
documents; interviewed program recipients; and visited program sites.

In assessing accuracy, we used two materiality thresholds. First, for
transcription error, we used an accuracy threshold of plus or minus one percent.
Second, for computation accuracy, we used an accuracy threshold of plus or
minus five percent.




                                                                               22
                                                                                           Appendix II


Management
Comments                                                             me morandum
             United States
              Agency for
             International
             Development


             TO:             Joseph Farinella, Regional Inspector General/Pretoria

             FROM:           Dawn Liberi, Mission Director, USAID/Uganda

             DATE:           January 31, 2002

             SUBJECT: Draft Audit Report of USAID/Uganda’s Monitoring
                      of the Performance of its HIV/AIDS Program – Audit
                      Report No. 4-617-02-XXX-P

             Mission received the subject draft report on January 9, 2002. The report includes the
             following recommendation:

             Recommendation No. 1:

                   We recommend that USAID/Uganda establish and implement procedures to
                   monitor its partners’ methods of data collection.

             Mission concurs with the above recommendation. In this respect, Mission has already
             taken the following actions:

             1. Developed an RFP to procure an integrated package of technical assistance (TA) for
                the Mission and its partners to monitor and report on performance. This TA will
                include collaboration with the USAID/Uganda Performance Monitoring Specialist and
                the SO teams to ensure that performance monitoring requirements related to data
                quality and reliability for each SO and IR indicator, are met. This procurement action
                is expected to be completed by the end of FY 2002.

             2. Mission works closely with the Centers for Disease Control and Prevention (CDC),
                which provides technical assistance to the surveillance, monitoring and evaluation
                activities of MOH and key HIV/AIDS partners. CDC is currently in the process of
                developing a formal mechanism to implement activities in CDC’s work plan, which
                includes monitoring of data quality. This new mechanism is expected to be in place
                by June 1, 2002. Once finalized, Mission will work with CDC to identify an
                appropriate means of sharing pertinent information on data quality and identifying
                appropriate follow-up.

             3. The SO team will include data quality assessments in future site visits.

             Attached are additional Mission comments on the report which Mission believes would
             add clarity:



                                                                                                     23
       Mission Comments on HIV/AIDS Program Audit
pg. 4 last paragraph: Delete the word resource - "effective political support from the
highest level of government." Resource support has come primarily from donors.

Other major factors also attributed to Uganda's success, not just the Government of
Uganda leadership e.g., vast community involvement including NGO’s, civil society
organizations (CSOs) and faith-based institutions as well as donor support.

pg. 8. Need to correct statement under HIV counseling - The majority of TASO clients are
referred by AIC; however, TASO does receive non-AIC referred clients. Should read
perhaps, "TASO provides counseling and care for clients referred primarily by AIC...."

pg. 10 - Socially marketed condoms – Indicates that CMS did not have supporting
documentation for 1997 data discrepancy. During the exit interview it was noted that this
information is archived in Washington.

pg. 18 - Would change "entertained" to "performed community education songs about
living positively with HIV/AIDS."

Pg. 21 – “SIDA” should be listed as the acronym for Swedish International Development
Agency. In the report it is listed as the French acronym for AIDS)

pg. 24 - caption – “...and help them decide whether to undergo HIV testing.".....


USAID/Uganda would like to take this opportunity to once again thank the RIG Audit Team
for their thorough and professional review of our HIV/AIDS program.




                                                                                         24
                                                                                         Appendix III


Rapid Scale-Up
and Intensive
Focus Countries
 •   Rapid Scale-Up Countries are defined as countries that will receive a significant increase in
     resources to achieve measurable impact within one to two years. This will result in an extremely
     rapid scaling-up of prevention programs and enhancement of care and support activities. Rapid
     Scale-Up countries include:

                Cambodia              Kenya          Uganda                 Zambia

 •   Intensive Focus Countries are defined as countries in which resources will be increased and
     targeted to reduce prevalence rates (or keep prevalence low in low-prevalence countries), to
     reduce HIV transmission from mother to infant, and to increase support services for people
     (including children) living with and affected by AIDS within three to five years. Intensive Focus
     Countries include:

                Ethiopia                      Nigeria                       Brazil
                Ghana                         Rwanda                        India
                Malawi                        Senegal                       Russia
                Mozambique                    South Africa
                Namibia                       Tanzania

 •   Basic Countries are defined as countries in which USAID will support host country efforts to
     control the pandemic. USAID programs will continue to provide assistance, focusing on
     targeted interventions for populations who engage in high-risk behavior. In these countries,
     there will be an increased emphasis on maintaining credible surveillance systems in order to
     monitor HIV trends and allow timely warning of impending concentrated epidemics of HIV. In
     addition, USAID will assist country institutions to identify additional sources of funding to
     expand programming.




                                                                                                    25
                                                                                                                                                     Appendix IV


                                Summary of USAID/Uganda’s Selected Performance Monitoring Controls

                                           Performance Monitoring Plan
                      1.        2.        3.         4.          5.            6.          7.          8.         9.        10.           11.
                   Indicator  Data       Data       Data    Responsibility    Data      Quality   Data Quality Baseline Data Agrees Other Means of
Indicator Number   Precisely Sources Collection Collection    Assigned     Limitations Assessment Assessment Established to Source Monitoring (If yes,
  and Indicator     Defined Identified Method     Schedule                  Disclosed Procedures    Done**                           indicate type)
     Name:                             Described Specified                             Described*
                                                                                                                                                  Yes - Annual
1. HIV                Yes        Yes        Yes         Yes          Yes           Yes          Yes          Yes          Yes           N/A       Surveillance
Prevalence                                                                                                                                        Reports

2. HIV Testing &      Yes        Yes        Yes         Yes          Yes           Yes          Yes          Yes          Yes           No        Yes - Annual
Counseling                                                                                                                                        Evaluation Reports
3. HIV                                                                                                                                            Yes - Annual Joint
Counseling            Yes        Yes        Yes         Yes          Yes           Yes          Yes          Yes          Yes           No        External Reviews
4. Socially
Marketed              Yes        Yes        Yes         Yes          Yes           Yes          Yes          Yes          Yes           No        Yes - Sales Reports
Condoms

 * The Mission submitted updated Performance Indicator Reference Sheets, dated October 2001, which included data quality assessment procedures.
** The Mission reviewed data quality assessments performed by their partners, World Health Organization and Centers for Disease Control.




                                                                                                                                                                 26
